<html>
<title> - H. CON. RES. 293, URGING COMPLIANCE WITH THE HAGUE CONVENTION ON THE CIVIL ASPECTS OF INTERNATIONAL CHILD ABDUCTION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 H. CON. RES. 293, URGING COMPLIANCE WITH THE HAGUE CONVENTION ON THE 
             CIVIL ASPECTS OF INTERNATIONAL CHILD ABDUCTION

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2000

                               __________

                           Serial No. 106-159

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-828                     WASHINGTON : 2000
                                 ______


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                     Jill N. Quinn, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup on H. Con. Res. 293, Urging Compliance with the Hague 
  Convention on the Civil Aspects of International Child 
  Abduction......................................................     1

                                APPENDIX

Statement of the Honorable Benjamin A. Gilman, a Representative 
  in Congress from the State of New York and Chairman, Committee 
  on International Relations.....................................    10
Text of H. Con. Res. 293.........................................    12

 
 H. CON. RES. 293, URGING COMPLIANCE WITH THE HAGUE CONVENTION ON THE 
             CIVIL ASPECTS OF INTERNATIONAL CHILD ABDUCTION

                              ----------                              


                          FRIDAY, MAY 19, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:30 a.m. in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order. Members 
please take their seats.
    The Committee on International Relation meets in open 
session this morning, pursuant to notice, to mark up House 
Concurrent Resolution 293.
    The Chair lays the resolution before the Committee.
    The Clerk will report the title of the resolution.
    The Clerk. Urging Compliance with the Hague Convention on 
the Civil Aspects of International Child Abduction.
    Chairman Gilman. Without objection, the preamble and 
operative language of the resolution will be read, in that 
order of amendment.
    The Clerk will read.
    The Clerk. Whereas the Department of State reports that at 
any given time there----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open for amendment at any 
point.
    [H. Con. Res. 293, ``Urging Compliance With the Hague 
Convention on the Civil Aspects of International Child 
Abduction'' appears in the appendix.]
    Chairman Gilman. This resolution is in the original 
jurisdiction of the full Committee.
    I now recognize the gentleman from Ohio Mr. Chabot, who 
sponsored the resolution.
    Mr. Chabot. Mr. Chairman, thank you for bringing this 
important legislation before the Committee today. You have been 
a true champion on the issue of international child abduction, 
and I can assure you that the left-behind parents of those many 
American children appreciate your hard work on their behalf.
    I also want to thank John Herzberg of the Committee staff 
for his help. His expertise on this issue and his commitment to 
helping these families has been a real benefit to us as we have 
been moving forward with this bill.
    I also want to thank Kevin Fitzpatrick from my office, who 
has been absolutely like a pit bulldog on this issue. He is 
very, very committed. He has been handling this in an 
extraordinarily professional manner, and I want to thank him 
personally for everything that he has done on this important 
issue.
    I also want to thank Mr. Gejdenson, the Ranking Member of 
this Committee, who has been very supportive, and it is very 
much appreciated.
    I also want to thank and pay tribute to the principal 
cosponsor of this bipartisan resolution, my friend from Texas, 
Congressman Nick Lampson. As founder and Chairman of the 
Congressional Missing and Exploited Children's Caucus, he has 
worked tirelessly on behalf of abducted children and their 
families, and he has been a very effective partner in this 
legislative effort.
    The State Department reports that there are at any given 
time more than 1,000 open cases of American children either 
abducted or wrongfully retained in a foreign country. Thousands 
more are thought to go unreported.
    The National Center for Missing and Exploited Children 
estimates that of the 165,000 parental kidnapping cases each 
year, approximately 10 percent involve a parent who takes the 
child abroad.
    This resolution focuses on those children. House Concurrent 
Resolution 293 is very straightforward. We are urging all 
contracting parties to the Hague Convention on the Civil 
Aspects of International Child Abduction to comply fully with 
both the letter and the spirit of their international legal 
obligations under the Convention to ensure their compliance by 
enacting effective implementing legislation and educating their 
judicial and law enforcement authorities, and to honor their 
commitments and return wrongfully abducted children to their 
place of habitual residence, and ensure parental access rights 
by removing obstacles to the exercise of those rights.
    Last October our Committee held a very important hearing on 
this issue. We heard compelling testimony from a number of 
witnesses. We listened to some very painful stories told by the 
left-behind parents of American children, and we learned of the 
incredible frustration felt by those parents as they were 
repeatedly rebuffed in their attempts to be reunited with their 
children, frustrated not only with the foreign governments who 
stood in their way, but with their own government as well.
    In the months since that hearing, I have had a chance to 
meet and talk with more of those parents, and many of them 
share a common story. Oftentimes their stolen children reside 
in a country that is a signatory to the Hague Convention, yet 
those countries routinely reject the responsibility that comes 
with participation in that agreement. At the same time, they 
see an impotent U.S. Government failing to respond to their 
pleas for help.
    Mr. Chairman, we will accomplish several things when we 
adopt this resolution. We will send a message to those 
offending countries, many of whom we consider allies, that the 
United States expects them to live up to their commitments 
under The Hague Convention. We will send a message to the State 
Department that international child abduction is a priority 
issue in the U.S. Congress, and that we expect our diplomats to 
make it a priority issue in their dialogues with offending 
nations. We will send a message to the thousands of left-behind 
parents of stolen children that their government has not 
forgotten them.
    I thank my colleagues for their attention and their 
support, and I urge support of the resolution.
    Mr. Chairman, at this time I would like to request that our 
colleague from Texas, Mr. Lampson, the principal cosponsor of 
the resolution, be permitted to make a statement in support of 
the measure. I want to once again thank Mr. Lampson for his 
great leadership on this issue, as well as Congressman Doug 
Ose, who also has been a strong leader and strong advocate for 
those parents who have had their children ripped away to other 
countries. I would like to thank both of those Members, and at 
this point I yield to Mr. Lampson.
    Chairman Gilman. Without objection, I recognize the 
gentleman from Texas Mr. Lampson, one of the original 
cosponsors of the measure.
    Mr. Lampson. Thank you, Mr. Chairman.
    I want to thank you and Ranking Member Gejdenson for 
allowing me to come and spend just a couple of minutes talking 
about this. I probably have reached a point where I have almost 
made a nuisance of myself along the way with this issue, and I 
thank you very, very much for your understanding and your 
support of everything that we have done, and certainly for 
Congressman Chabot for the work that he has done in joining me 
in cosponsoring this very important piece of legislation. 
Steve, I thank you a great deal for your interest, your 
concern, and your persistence.
    As Chairman and founder of the Congressional Missing and 
Exploited Children's Caucus, I really am pleased that the 
Committee has recognized the importance of an issue that 
Congressman Chabot and I have been pushing, international 
parental child abduction. The bill that the Committee is 
marking up today calls on signatories of the Hague Convention 
on the Civil Aspects of International Child Abduction to abide 
by the provisions of the Hague Convention.
    I came before you 3 months ago with a number of parents to 
announce to Congress and to the American people that it was 
time for America and our foreign counterparts to sit up and 
take notice of the 10,000 American children who have been 
abducted overseas. That time has come. We are pointing fingers 
today at those countries that have not lived up to their side 
of the deal. I know that the United States is not perfect, that 
we still have much educating to do of the judges who deal with 
this issue, but the return rate by the United States to other 
Hague countries is upwards of 89 percent. We know that American 
children are returned at a rate far less than what the United 
States returns, about 24 percent.
    I received a telephone call as I left the office, just a 
matter of 5 minutes or so before I left the office, and it was 
from Paul Marinkovich. Paul Marinkovich is a father whose child 
has been on the run with the child's mother to four different 
countries for the last 3 years. This morning he received word 
from Scotland courts, because they have enacted The Hague 
Convention there, that he won his case, and his child will be 
coming to the United States. That is the success that we have 
sought on any and all of these cases, and they are happening 
now because of Congress's willingness to stand up and be heard 
on this issue.
    These parents' children have been abducted to Hague 
countries all over the world. This issue is one that is 
nonpartisan and one that none of us can afford to ignore. I am 
truly pleased to have introduced this resolution with my 
friend, Congressman Steve Chabot. Our resolution urges all 
contracting parties to the Hague Convention, particularly 
European civil law countries that consistently violate the 
Hague Convention, such as Austria, Germany and Sweden, to 
comply fully with both the letter and the spirit of their 
international legal obligations under the Convention, in 
addition to urging all contracting parties to ensure their 
compliance with the Convention by enacting effective 
implementing legislation and educating their judicial and law 
enforcement authorities.
    As I stated in my press conference about 3 months ago, we 
need to raise awareness. Parents from across the country have 
been contacting their Members of Congress, and we must continue 
to put pressure on other countries that are Hague signatories 
that are not abiding by The Hague treaty. This resolution does 
just that.
    As I said in March, I would like to issue a challenge to 
each of you to help carry this message forward and help us 
bring our children home.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Lampson.
    I recognize, without objection, a nonmember of our 
Committee who is also one of the original sponsors of this 
bill, Mr. Ose from California.
    Mr. Ose. Thank you, Mr. Chairman. I am appreciative of your 
efforts to bring this quickly forward. I want to commend my 
good friend Mr. Chabot and my good friend Mr. Lampson for not 
only their eloquence this morning, but their dedication to this 
issue.
    It is interesting, before I go home every night, I take 30 
minutes and I call my children, and I am reminded every time I 
call about why I came to Congress.
    So thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Ose.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I commend the 
original cosponsor of the legislation to say that no one is 
immune from this kind of crisis. We know that Lady Meyer, wife 
of the British Ambassador, has this problem where her children 
have been taken off to Germany and she is not able to see them. 
One of my constituents traveled with her husband back to Egypt, 
he divorced her, took the children, faked a car accident and 
claimed the children were dead. When she found out they were 
alive, she tried to get them. That didn't succeed. He then 
found out later that she was pregnant with yet another child 
and threatened to kidnap that child. She is now in hiding. So 
we need to have an international response here.
    I applaud the efforts of all of those who have been 
involved. We have 132 cosponsors. We have heard from the key 
Members that really initiated this effort. We have 15 
cosponsors on the Committee in support of moving the issue to 
move rapidly.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Ms. Ros-Lehtinen.
    Mr. Hastings.
    Mr. Hastings. Mr. Chairman, thank you very much. I, too, 
associate myself with the remarks of Mr. Chabot and Mr. Lampson 
and Mr. Gejdenson in commending them for bringing this matter 
forward, and you, Mr. Chairman, for giving it the highest 
priority.
    As rightly we should, we are dealing with returning 
American children who are caught up in the vicissitudes of 
parental disputes and governmental disputes, and rightly, we 
should make this our highest priority.
    I have the misfortune of having this as the fourth forum in 
which I have had to live with this kind of situation. I have 
been a lawyer for people who have had this problem. I was a 
circuit court judge in a juvenile decision ruling with 
reference to matters of this kind, again in Federal court as a 
judge, and now as a Congressperson. Hopefully, this will bring 
us to a better resolution than I saw in the other three fori 
that I had opportunities to deal with this matter.
    I do wish to assert to my colleagues that have brought this 
matter forward, I would hope that after we are successful, that 
you would also dramatize and bring to the attention of the 
world the need that we have in addition to what we are doing 
here by falling in line with the Hague Convention to ratify the 
Convention on the Rights of Children, and that is all children, 
not just American children. We have in this country a 
significant number of unaccompanied minors who are not being 
handled properly by our country. I would think, in light of the 
fact that 164 countries have ratified the treaty on the 
Convention on the Child passed by the United Nations in 1989, 
our country and Somalia being the only two that have not 
ratified that treaty, that it would be helpful that if the same 
sponsors, and I am one of the cosponsors with you all, would 
bring your attention to that matter.
    I filed a resolution calling on us to expedite that 
particular matter and to deal with the subject of the 
unaccompanied minors who are here. I think it would help us in 
dealing with countries like Sweden and Germany and Austria, who 
seemingly are hell-bent on not following The Hague Convention.
    Thank you again for your leadership on this, Mr. Speaker, 
and Mr. Chabot, and Mr. Lampson especially, and Mr. Ose for the 
fine work that they have done.
    Chairman Gilman. Thank you, Mr. Hastings.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I just want to 
commend the authors of this bill. I have worked closely with 
Nick Lampson on these issues. I have one case in my district 
involving Costa Rica, and I can see how tangled these matters 
become, and I commend the Chairman for moving this markup 
quickly.
    Chairman Gilman. Thank you very much, Mr. Sherman.
    Any other Members seeking recognition?
    This resolution, H. Con. Res. 293, urges compliance with 
the Hague Convention on Civil Aspects of International Child 
Abduction. It is unfortunate that we are in the position of 
having to criticize by name several nations with whom we have 
otherwise friendly relations, Germany, Austria, Sweden, 
Honduras and Mexico, but it is clear from the circumstances 
that it is necessary to do so.
    I want to commend the gentleman from Ohio Mr. Chabot, who, 
on behalf of some 132 cosponsors, introduced this measure. I 
would also like to thank Mr. Lampson from Texas as the Chairman 
of the Caucus on Missing and Exploited Children, and Mr. Ose 
from the State of California, who have devoted much of their 
time to raising our level of awareness of the growing problem 
of international child abduction.
    We are taking action on this measure on behalf of the 
parents of our abducted and wrongfully retained children. These 
left-behind parents have put their faith and trust in an 
international agreement, The Hague Convention, which is clear 
and explicit on the obligation of signatory governments to 
return an abducted or wrongfully retained child to his or her 
country of habitual residence. Nevertheless, we have found that 
in a number of nations, for a variety of reasons, this does not 
occur, and the resultant frustration, heartbreak and outrage 
has led us to act on the measure before us today.
    I should also add that we need to have our State Department 
do more to promote compliance with The Hague Convention. The 
return of an abducted or illegally retained child should be on 
the top of the Secretary's meetings with any official of a 
country involved in such cases.
    This is not a problem that should be handled as a routine 
exchange of diplomatic notes or phone calls by junior U.S. 
officials to their foreign counterparts. We need to see some 
concern and some concrete actions by the highest levels of our 
government to redress what is, evidently, a growing 
international problem.
    It is our hope that by adopting this resolution, and 
sending it to the floor for speedy action, we will send a 
strong signal that this is an issue that we care deeply about. 
We need to get the attention of the Governments of Germany, 
Sweden, Austria, Mexico, and Honduras that they cannot expect 
The Hague Convention to be a one-way street. Accordingly, I 
urge our Committee to fully agree to the request that H. Con. 
Res. 293 be scheduled on the suspension calendar.
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    Chairman Gilman. Are there any other Members seeking 
recognition?
    If not, the gentleman from Ohio Mr. Chabot is recognized to 
offer a motion.
    Mr. Chabot. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. Thank you.
    The question is now on the motion of the gentleman from 
Ohio. As many as are in favor of the motion, signify by saying 
aye.
    As many are opposed, say no.
    The ayes have it. The motion is agreed to.
    Further proceedings on this motion are postponed.
    The Committee stands adjourned.
    [Whereupon, at 10:55 a.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                              May 19, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7828.001
    
    [GRAPHIC] [TIFF OMITTED] T7828.002
    
    [GRAPHIC] [TIFF OMITTED] T7828.003
    
    [GRAPHIC] [TIFF OMITTED] T7828.004
    
    [GRAPHIC] [TIFF OMITTED] T7828.005
    
    [GRAPHIC] [TIFF OMITTED] T7828.006
    
    [GRAPHIC] [TIFF OMITTED] T7828.007
    

</pre></body></html>
